•x

}

I

)

-• . .
Case# 20-1342
Petition For
Rehearing
Customer Number: 138820 2/19/2016

This petition is submitted in good faith

Article 1 Section 8 Of the
United States Constitution

To Promote Progress of Science and useful Arts, by securing for limited times to authors and inventors
the exclusive right to their respective writings and discoveries.

Mr. Titus L. Radcliff
931 Vernon Street
Daytona Beach, FI. 32114
Sincerely,
Customer # 138820 2/19/2016

i

1

Case # 20-1342
Petition For
Rehearing

I Titus Lee Radcliff Certify that this Petition
is presented in Good Faith and Not For delay
On May 4, 2021.

2

Certificate

The grounds are limited to intervening circumstances of substantial or controlling effect or to other
substantial grounds not previously stated.

3

First, I will establish the (3) elements to prove extortion which are (1), a threat in which on November
03,1992 was met by the St. Of Fla. Office Of Attorney General case# 92-00031, which establishes the
threat in which I was paid monetary restitution in part but part taken back. This case also had another
case folded into this case# 92-31. The threat was established as I was a continuous victim of a Felony
with mental & physical pain shown as a scar on my face even today pain when I look in the mirror daily
to do personal hygiene which elaborates on physical force.
(2) The permanent element is found in the Final Judgment of Paternity dated 2/19/1992, which covers
rights, which establishes the taking of money.
(3) The last element is force, and fear which is also established by my mental disorder which is 100%
compensated by the V.A.. The taking of property is the Final Summary Judgment dated 5/2/1996. The
color which has been substituted, with vehicles which one was brown & black & the other is presently
white. The vehicles are used to carry on the fruition of the extortion, found in the 2nd Injunction For
Stalking dated 8/22/2013. This was also used to enforce the marriage provision listed in the Illegal Final
Judgment of Paternity on 2/19/1992.

The original Mutual Injunction for Protection shows consolidation and taking of Rights dated
1/30/1992.
Additionally, to harm my career, I was jailed the first (2) times under a different Social Security
Number, which was Lenard A. Jackson, my brother where the Zodiac & Horoscope came in with the
twin identity, (1) 5/12/1997 &, (1) 5/1998 with no date on Purge Certificate using the Church I attended
at that time, His Ministry Daytona Beach, FI. On Seagrave Ave. 32114 Minister's Signature James
Duncan, or confined (4) times or a total of 64 days as evidenced thru the U.S. Federal District Court in
Orlando, FI. which dismissed for failure to State a Claim under Non- convenienes. The (2) purge
certificates bring in an Identity element with the Social Security numbers connected to use other States
laws.
Now, here with the case of Sandra L. Booker ind obo Mya Ali Booker, We have theFfinal Judgment Of
Injunction For Protection Against Stalking. This is a repeat but to bring in more property using
Substitution of Public Officials, which is rule 35 of the U.S. Supreme Court with her position being
Assistant Athletic Director for Bethune Cookman University being subsidized by the St. Of FI. In this
order, Judge Terence R. Perkins put an injunction order on me for Stalking Violence
(twisting)(substituted) the results inserting Qualified Immunity. Judge Perkins substituted my identity
with my younger brother Lenard A. Jackson when he was dating the older lady on Baywood Dr. in
Daytona Beach, FI., Westside which again connects to the addition of Judge T. Perkins denying me the
right to go to the school. In this case Westside Elementary on Jimmy Ann Drive in Daytona Beach, FI..
Ms. Booker indicated at the hearing on 8/22/2013 that I kept asking about her (5) year old daughter
Mya, who was about the same age as Shawndrea at that time when the child support case came up for
Shawndrea R. Radcliff, my daughter. This is why I brought my now adult daughter into my present
Pension case in the Court Of Appeals for Veterans Claims case# 19-1010. She is presently in paralegal
School at Daytona State Judge T. Perkins made it appear that I was attracted to children in a sick way,
which is facts not in evidence or Canon law, the law of the Judges. This is how the criminal side came up
that since my younger brother Lenard A. Jackson who was convicted of Rape of the elderly, then I'd like

4

younger kids & told me he was going to grant the Stalking Injunction anyway. This was when I put in a
Supplemental Brief to the U.S. Supreme Court in Case 13-5186 in 8/2013.
Mr. Krystyniak in the U.S. Court Of Federal Claims case# 20-821C cited this as support for his dismissal
of my case in the U.S. Court Of Federal Claims under the term prophylactic, which was used in terms of
my prescribed medication for Mental Illness. In actual terms, this was Preventive Maintenance, first &
2nd echelon.
The substitution Expedited Hearing, which I wasn't Privy to was held March 3, 2021 which I was not
allowed to attend because this was a St. Of FI. Habeas Corpus Proceedings with no contact for me to be
involved in the Zoom hearing dated 2/5/2021.
If you note on 3/4/2021, the Expedited hearing was suppose to be on the 3rd, but according to this
granting of Motion dated 3/5/2021, the hearing was on the 4th & granted on the 5th.
The RFA.# 21-11370 dated 4/9/2021 is a complaint on the Attorney with the FI. Bar.
With this tool the twisting or extortion is shown in the U.S. Court of Appeals for Veterans claims case#
19-1010 with FI. State Rules of civil Procedure rule 1.201 complex litigation (a) & Multi District Litigation
28 USC 1407(e) & 28 USC 1404 (b).
Sincerely,

Additional material
from this filing is
available in the
Clerk's Office.

